<html>
<title> - EXPANDING THE ROLE OF STATES IN EPA RULEMAKING</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
                      EXPANDING THE ROLE OF STATES
                           IN EPA RULEMAKING

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 23, 2017

                               __________

                           Serial No. 115-14

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                             _________ 

                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-469 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001           
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
GARY PALMER, Alabama                 ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
                                 ------                                

                      Subcommittee on Environment

                    HON. ANDY BIGGS, Arizona, Chair
DANA ROHRABACHER, California         SUZANNE BONAMICI, Oregon, Ranking 
BILL POSEY, Florida                      Member
MO BROOKS, Alabama                   COLLEEN HANABUSA, Hawaii
DANIEL WEBSTER, Florida              CHARLIE CRIST, Florida
BRIAN BABIN, Texas                   EDDIE BERNICE JOHNSON, Texas
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
JIM BANKS, Indiana
CLAY HIGGINS, Louisiana
LAMAR S. SMITH, Texas

                            C O N T E N T S

                              May 23, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Andy Biggs, Chairman, Subcommittee on 
  Environment, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     6

Statement by Representative Suzanne Bonamic, Ranking Member, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    14

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    16
    Written Statement............................................    18

                               Witnesses:

Mr. Misael Cabrera, PE, Director, Arizona Department of 
  Environmental Quality
    Oral Statement...............................................    20
    Written Statement............................................    22

Ms. Becky Keogh, Director, Arkansas Department of Environmental 
  Quality
    Oral Statement...............................................    26
    Written Statement............................................    28

Dr. Deborah L. Swackhamer, Professor Emerita, Hubert H. Humphrey 
  School of Public Affairs and Professor Emerita, Environmental 
  Health Sciences, University of Minnesota
    Oral Statement...............................................    39
    Written Statement............................................    41

Discussion.......................................................    49

             Appendix I: Answers to Post-Hearing Questions

Dr. Deborah L. Swackhamer, Professor Emerita, Hubert H. Humphrey 
  School of Public Affairs and Professor Emerita, Environmental 
  Health Sciences, University of Minnesota.......................    70

            Appendix II: Additional Material for the Record

Documents submitted by Representative Andy Biggs, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    80

Documents submitted by Representative Suzanne Bonamic, Ranking 
  Member, Subcommittee on Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    84


             EXPANDING THE ROLE OF STATES IN EPA RULEMAKING

                              ----------                              


                         TUESDAY, MAY 23, 2017

                  House of Representatives,
                       Subcommittee on Environment,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2318, Rayburn House Office Building, Hon. Andy Biggs 
[Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Biggs. The Subcommittee on Environment will come 
to order. There we go.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to all of you, especially to our witnesses, to this 
hearing today, which is entitled, ``Expanding the Role of 
States in EPA Rulemaking.'' I recognize myself for five minutes 
for an opening statement.
    I'm grateful to have all of you here for this hearing 
entitled, ``Expanding the Role of States in EPA Rulemaking.''
    The Tenth Amendment protects States from being bullied by 
the federal government. Instead of allowing complete and 
unchecked power at the federal level, the Constitution ensures 
that states retain their authority on issues not expressly 
defined.
    Unfortunately, the previous Administration must have 
skimmed over that part of the Constitution, deciding instead to 
impose complete control over states and their economies. This 
was certainly the case with the Environmental Protection 
Agency. Far too often, states found themselves forced to comply 
with costly and unachievable environmental standards, all for 
little or no benefit.
    As the EPA gains new leadership, the states must be given a 
larger role on environmental policy and not cede any more 
authority to unelected bureaucrats in Washington, DC. The EPA 
under Obama--under President Obama routinely overstepped its 
authority, promulgating unnecessarily stringent standards 
without regard to state abilities or local expertise.
    In implementing nationwide ozone standards, to use one 
significant example, the Agency chose an uninformed one-size-
fits-all regulatory agenda without regard to the unique 
challenges each state may face.
    In October 2015, the EPA lowered the national ozone 
standard from 75 parts per billion to 70 parts per billion. 
Southwestern states like my home State of Arizona are unable to 
comply with this standard solely due to our geographic 
location, which the EPA conveniently ignores when issuing 
standards.
    Arizona experiences a slightly amount of naturally 
occurring ozone emissions--excuse me, a significant amount of 
naturally occurring ozone emissions, which contribute greatly 
to volatile organic compound emissions, or VOCs. Power plants, 
oil refineries, industrial sources, and other stationary 
sources account for one percent of Arizona's VOC emissions, yet 
this is not something the EPA readily admits or acknowledges.
    Although the EPA's shortcomings on setting ozone standards 
are reprehensible, the way this agency has dealt with the 
regional haze program is even more egregious. This rulemaking 
merely aims to increase the clarity and color the human eye can 
see when visiting national parks and other protecting--
protected federal wilderness. You heard me correctly. The goal 
of this rule is not to improve human health in any way and does 
nothing to prevent environmental hazards. It is an ostensible 
aesthetic measure. And, shockingly, implementing this rule will 
cost individual states hundreds of millions of dollars.
    When Congress enacted haze regulations, the original intent 
was to have states dictate how to implement the program. The 
EPA was tasked with giving guidance to states while at the same 
time granting them deference to decide how to implement the 
program. Congress envisioned a true partnership. Perhaps if the 
EPA had made an earnest effort to partner with states and truly 
listen to their feedback, Americans would not be paying the 
cost of hollow and ineffective regulations.
    Thankfully, the new EPA Administrator Scott Pruitt has 
expressed an intent to work with states in a cooperative manner 
to crate positive change. This hearing will help aid this 
endeavor by giving state officials the opportunity to voice 
their states' needs. I hope this hearing will act as a step 
forward--excuse me, step forward and a step toward ensuring a 
true partnership between states and the federal government.
    [The prepared statement of Chairman Biggs follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Chairman Biggs. Without objection, I'd like to enter into 
the record a written statement from the Wyoming Department of 
Environmental Quality discussing the important relationship of 
state environmental agencies in federal rulemaking.
    [The information appears in Appendix II]
    Chairman Biggs. And I will yield back the balance of my 
time.
    And I now recognize the gentlewoman from Oregon, the 
Ranking Member, Mrs. Bonamici, for an opening statement.
    Ms. Bonamici. Thank you, Mr. Chairman, and thank you to all 
of our witnesses for being here today.
    Before we talk about the topic that is the title of this 
hearing today, ``Expanding the Role of States in EPA 
Rulemaking,'' we need to discuss the basis of these rules 
themselves. The existence of the EPA and its core mission to 
protect human health and the environment stemmed from a failure 
of the states to safeguard their residents from pollution in 
the air, water, and soil. EPA's role as a federal environmental 
regulatory body was meant to provide an even playing field for 
all Americans, regardless of geography because the health of 
our families is not something we can leave to chance.
    The mission of the EPA is to protect human health and the 
environment, and the Agency's purpose clearly states that its 
efforts to protect Americans from significant risks should be 
based on the best available scientific information. As Members 
of the Science Committee, it is important for us to focus on 
the oversight of the federal research undertaken by agencies in 
our jurisdiction. For the EPA, this means allowing the Office 
of Research and Development to continue its leading-edge 
scientific research that forms the basis of agency actions, 
including rulemaking.
    The back-to-basics agenda that EPA Administrator Scott 
Pruitt has touted recently with the focus on environment 
economy and engagement appears to have little overlap with the 
Agency's stated mission to protect human health and the 
environment. Further actions by both the EPA Administrator and 
the Trump Administration have shown an increased proclivity 
toward promoting industry interests over public health whether 
by refusing to renew the terms of eligible members of the 
Agency's Board of Scientific Counselors or proposing to gut 
funding for the EPA's Office of Research and Development, the 
office that conducts the research that forms the basis of 
environmental protections.
    This Administration and my colleagues on the other side of 
the aisle in this committee are quick to forget the condition 
of our environment prior to the existence of the EPA when 
pollution was pervasive in our air, water, and soil. Let me be 
clear: Our work is not done. Just because we cannot see the 
pollution around us know that--now that our rivers no longer 
catch fire and our cities are not as choked by smog does not 
mean that the EPA can close up shop or retreat. In fact, we 
need the EPA now more than ever.
    The American people agree. During a recent call for 
comments on what EPA regulations to modify, repeal, or replace, 
thousands of Americans pleaded to keep in place environmental 
safeguards with some even warning that we would be doomed to 
repeat our history if we dismantled existing protections.
    Although I'm concerned by the Administration's broad 
actions against science across the agencies, I'm especially 
troubled by the specific EPA actions because the seriousness of 
the Agency's mission, to protect the public from environmental 
risks.
    That's why am pleased that we have Dr. Swackhamer here 
today to highlight the scientific foundation of these 
environmental safeguards and the importance of continuing to 
press forward on scientific research both internally at the EPA 
and additionally through grants.
    I look forward to a discussion starting today and I hope 
continuing into the future about the integral role that 
scientific inquiry plays in informing policy and risk at the 
EPA in order to keep our constituents safe and healthy in the 
communities we are also honored to represent.
    With that, I'd like to thank the witnesses for being here 
today.
    [The prepared statement of Ms. Bonamici follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Ms. Bonamici. And, Mr. Chairman, I would also like to ask 
for unanimous consent that a letter be introduced into the 
record. This letter was sent to EPA Administrator Scott Pruitt 
last week requesting additional details surrounding the 
decision to not renew the terms of nine eligible members of the 
EPA's Board of Scientific Counselors. It is signed by the 
Ranking Members of the full Science, Space, and Technology 
Committee and the Energy and Commerce Committee, as well as the 
Ranking Members of their respective Oversight and Environment 
Subcommittees.
    Chairman Biggs. Without objection.
    [The information appears in Appendix II]
    Ms. Bonamici. Thank you, Mr. Chairman, and with that I look 
forward to the testimony and yield back the balance of my time.
    Chairman Biggs. Thank you.
    I now recognize the Chairman of the Full Committee, Mr. 
Smith.
    Chairman Smith. Thank you, Mr. Chairman, and also thanks to 
the witnesses for being here today.
    Mr. Chairman, the United States Constitution asserts that 
state governments retain power when not directly superseded by 
the federal government. This is explicitly stated in the Tenth 
Amendment.
    Unfortunately, during the previous Administration, the 
relationship between the Environmental Protection Agency and 
state governments eroded to the point that states were 
micromanaged by the federal government at every turn, often at 
great detriment to their local economies.
    The EPA sought control over state interests and routinely 
downplayed state concerns in order to enforce a costly partisan 
agenda that did little to better the environment. For instance, 
when EPA regulations mandated that states create plans to meet 
environmental standards, the EPA routinely usurped these plans 
and created far stricter plans for states with little or no 
negotiation. This isn't the relationship our Founding Fathers 
envisioned when they created the Bill of Rights. This is the 
implementation of a unilateral environmental agenda.
    What's also troubling is that the regulations EPA proposed, 
finalized, and forced onto states during the previous 
Administration were routinely shown to be based on suspect 
science. The EPA often cherry-picked what science to utilize, 
and amazingly didn't even possess some of the data they 
supposedly used for regulations.
    Not surprisingly, the EPA has been broken for years. That's 
why the Committee approved two important pieces of legislation 
this year: the HONEST Act, and the Science Advisory Board 
Reform Act. These bills, passed by the House and sent to the 
Senate, will promote scientific integrity and assure that 
scientific advice and counsel is no longer lopsided.
    I am encouraged that President Trump and Administrator 
Pruitt are working hard to return the EPA to its rightful place 
as an honest agency that isn't plagued by a one-sided agenda. 
Unfortunately, this is a big task. Even now, staff at the 
Agency is working to undermine the President's authority by 
continuing to conspire with environmental allies of the past 
Administration who want to impose costly, job-killing 
regulations on American taxpayers.
    Recently, science integrity officers at the EPA have 
scheduled a stakeholder meeting to discuss the Agency's 
scientific integrity practices. The stakeholders invited to 
this closed, invitation-only meeting reads like a ``who's who'' 
of environmental activists with little diversity among 
viewpoints.
    It is clear that certain employees at the EPA continue to 
undermine the current Administration and are doing so in near-
secret meetings. A meeting like this should not take place 
without balanced representation of all stakeholders. Or even 
better, the meeting should be open to all who wish to attend.
    Under the previous Administration, science advisory panels 
and boards at the EPA were packed with ``experts'' of the same 
mindset, acting as a rubberstamp of the Agency's agenda. These 
same ``experts'' also were found to be double-dipping. They are 
routinely funded by EPA grant money but then advise the Agency 
on the same issues they were funded to examine. This is a clear 
conflict of interest. I am disappointed that some employees 
continue to push a secret, one-sided agenda instead of working 
with the Administration.
    This Administration is returning EPA to its rightful agenda 
of relying on good science, not cherry-picked or non-existent 
science. And I applaud the work of Administrator Pruitt and 
look forward to working with him to make sure regulations are 
providing the most benefit to our states and their citizens.
    With that, I again look forward to hearing from our 
witnesses today, and yield back the balance of my time.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Chairman Biggs. I now recognize the Ranking Member of the 
Full Committee for a statement, Representative Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman and our 
distinguished Ranking Member and witnesses.
    Environmental protections that limit damage to the 
environment and protect the public from toxic exposure should 
be based on solid scientific evidence. Five decades ago, a 
Republican President established the Environmental Protection 
Agency to ensure that this was the case. Some of us still 
remember that the EPA was created because the states were not 
doing a good job in regulating private industries and in 
safeguarding the health and safety of their residents.
    In the years and decades before EPA was established, rivers 
were literally causing--catching fire because of flammable 
chemicals dumped into them. Smog engulfed the air in certain 
cities exacerbating health ailments, and children played in 
urban areas immersed with toxic chemicals.
    Richard Nixon established the EPA to assist state 
environmental agencies by providing them with the scientific 
research necessary to successfully carry out their mission to 
protect the public. He believed a federal scientific agency was 
needed to help the nation address critical environmental issues 
because he knew they could not be successfully addressed with 
each State acting on their own. In his message to Congress in 
July of 1970, President Nixon said the EPA was needed to make a 
coordinated attack on the pollutants which debase the air we 
breathe, the water we drink, and the land we grow our food.
    Certainly, environmental problems still exist today. 
However, as a nation, together we have made steady progress in 
addressing them. These achievements have been made by relying 
on creditable environmental science that has helped to 
enlighten policymakers and politicians alike in order to help 
develop constructive policies and reasonable regulations to 
protect the public. But abandoning these or this responsibility 
will not help protect the environment or improve the public's 
health. Rather, it will turn back the clock more than 50 years.
    Many of the proposed environmental policies and regulations 
coming from this Administration and the Science Committee 
majority have already put us on a road back to a time when 
industries polluted unimpeded. The public suffered and 
politicians stayed silent. I am concerned that, today, the 
Trump Administration is attempting to silence federal 
scientists and offer alternative facts rather than scientific 
evidence.
    The decision by EPA Administrator Scott Pruitt earlier this 
month to not renew nine of the 18 members of the Agency's Board 
of Scientific Counselors is just the latest example of this 
Administration's effort to silence scientists. The EPA has also 
scrubbed references to climate change from its websites, and 
the Administrator recently ignored the research finding of 
EPA's own scientists who recommended banning a toxic chemical 
and instead sided with the insecticides manufacturer.
    We are fortunate that, today, Dr. Deborah Swackhamer is 
here to provide us with her perspective on these unfortunate 
events. Dr. Swackhamer is a Professor Emeritus of Science, 
Technology, and Public Policy, as well as a Professor Emerita 
of Environmental Health Science at the University of Minnesota, 
bringing a wealth of scientific expertise to the table. She is 
also the current Chair of EPA's Board of Scientific Counselors 
and the former Chair of EPA's Science Advisory Board.
    Although she's testifying today in her personal capacity as 
a scientist expert and not representing any of EPA's Science 
Advisory Boards, I am glad she has decided not to stay silent. 
I look forward to hearing her perspective on how the federal 
government can rely on science to develop appropriate 
environmental policies and regulations.
    In closing, I'd like to remind my colleagues that the EPA 
was created by a Republican President to preserve environment--
to preserve the environment and protect the public health, not 
the profits of private corporations. The EPA's fundamental 
mission, however, appears to be under attack. The efforts to 
alter EPA's mission, downgrade its legal authority, and silence 
its scientists will endanger the public and threaten the 
environment against the public's will.
    However, science has proven repeatedly that science cannot 
be silenced. Scientific facts are supported by evidence, not 
opinions. Distorting or dismissing scientific facts do not 
alter scientific knowledge. I hope that this committee, this 
Congress, and this Administration can get back to the basic 
principles of good governance where science forms a solid 
bedrock that helps to educate policymakers and inform their 
public policy choices.
    I look forward to the testimony of our witnesses, and I 
thank you, Mr. Biggs. And I yield back.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Chairman Biggs. Thank you.
    Let me introduce our witnesses today. We have a great panel 
here with us. And our first witness today is Mr. Misael 
Cabrera, Director of the Arizona Department of Environmental 
Quality. Director Cabrera is a registered professional 
engineer. He received his bachelor's degree in civil 
engineering from the University of Arizona.
    Our next witness will be Ms. Becky Keogh, Director of the 
Arkansas Department of Environmental Quality. Ms. Keogh 
received her bachelor's degree in chemical engineering from the 
University of Arkansas.
    And our final witness today is Dr. Deborah Swackhamer, 
Professor Emeritus of the Hubert H. Humphrey School of Public 
Affairs and Professor Emerita of Environmental Health--excuse 
me--Environmental Health Sciences at the University of 
Minnesota. Dr. Swackhamer received her bachelor's degree from 
Grinnell College and her master's and Ph.D. from the University 
of Wisconsin Madison.
    I now recognize Mr. Cabrera for five minutes to present his 
testimony.

         TESTIMONY OF MR. MISAEL CABRERA, PE, DIRECTOR,

          ARIZONA DEPARTMENT OF ENVIRONMENTAL QUALITY

    Mr. Cabrera. Mr. Chairman, Members of the Committee, I am 
greatly appreciative of the opportunity to offer testimony 
today.
    As we discuss expanding the role of states in the U.S. 
Environmental Protection Agency rulemaking, we should also 
discuss its corollary: reducing the role of EPA in state 
rulemaking. Let me explain. The Clean Air Act calls for states 
to prepare implementation plans when national air quality 
standards are not being met. The state implementation plans 
contain state-specific rules, rules that are developed through 
extensive stakeholder involvement and designed for 
environmental protection and local effectiveness.
    When EPA rejects a state plan or when it issues its own 
federal implementation plan, it effectively coerces states to 
write state rules in the specific way that EPA sees fit. One 
example of this is what I'd like to call the ``EPA regional 
haze maze.''
    In 1990, Congress established the regional haze program 
calling for states to develop plans for regional progress 
towards the national visibility goal set in 1977. Congress also 
established authority for Visibility Transport Commissions and 
mandated the Grand Canyon Visibility Transport Commission.
    In 1992, EPA established the Commission addressing specific 
parks and wilderness areas in a nine-state region made up of 
eight Governors, four tribal leaders, four ex-official federal 
organizations with the Arizona Governor serving as the Chair. 
Once established, the Commission formed working committees of 
over 200 experts in air quality, regulatory programs, and 
economics.
    In 1996, the Commission issued a final report with 
recommendations to EPA. At that point, EPA should have 
implemented the Commission's recommendations. Instead, we were 
led further into the EPA regional haze maze.
    In 1997, EPA proposed regulations that totally ignored the 
Commission's findings.
    In 1998, upset Western Governors provided guidance to EPA 
on how to implement the Commission recommendations, and the 
Senate held oversight hearings.
    In 1999, EPA issued revised regulations with two programs: 
a general program for any State and an optional program for the 
Commission States.
    In 2004, Arizona, New Mexico, Utah, and Oregon were the 
first states in the nation to submit regional haze plans. The 
next few years included court challenges to EPA rules and 
states trying to appease the desires of EPA.
    In 2009, EPA published a finding that 34 states had failed 
to submit state plans by the regulatory deadline and that three 
states, including Arizona, had failed to submit required 
elements of the plans.
    In 2011, Arizona determined that the--that implementing the 
regional haze requirements under the optional program would not 
be feasible and submitted a replacement plan under the general 
program.
    In 2011, Earth Justice sued EPA for failing to act on the 
plans. EPA and Earth Justice settled, requiring EPA to act on a 
submitted state plan or issue a federal plan.
    In 2012, EPA partially disapproved Arizona's submittal and 
issued a federal plan for several facilities in Arizona. EPA's 
plan had an estimated cost of over $500 million.
    The worst part of the EPA regional haze maze is that after 
20 years of extensive stakeholder meetings and negotiations, 
multiple commission reports, two state plans, four lawsuits, a 
federal plan that would cost over $500 million, after all that, 
the modeled improvement to visibility would not be perceivable 
to the human eye. Let me repeat that. EPA's insistence on 
controls that cost over $500 million would not have created a 
perceivable visibility difference in the Grand Canyon State.
    Given that states now have mature regulatory programs, 
unlike 40 years ago, and technical expertise, EPA should give 
deference to competent state regulators who develop state plans 
and state-specific rules. Only in rare instances where minimum 
criteria are not met should EPA reject state plans or issue a 
federal plan. In short, we should absolutely expand state 
involvement in EPA rulemaking, and we should reduce EPA 
involvement in state rulemaking via the state implementation 
planning process set forth in the Clean Air Act.
    In closing, I would like to mention that I am very 
encouraged by EPA Administrator Pruitt's statements regarding a 
renewable of collaborative federalism and the Environmental 
Council of States' work on the same issue.
    Thank you very much. I'll open to any questions.
    [The prepared statement of Mr. Cabrera follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Biggs. Thank you.
    Director Keogh?

            TESTIMONY OF MS. BECKY KEOGH, DIRECTOR,

          ARKANSAS DEPARTMENT OF ENVIRONMENTAL QUALITY

    Ms. Keogh. Chairman Smith, Chairman Biggs, Ranking Members, 
and Members of the Committee, I am Becky Keogh. I hail from the 
great State of Arkansas and bring greetings from your former 
colleague and now my boss Governor Asa Hutchinson.
    Since taking on the humbling and exciting role of serving 
in Governor Hutchinson's Cabinet as Director of the Department 
of Environmental Quality and now including our Office of 
Energy, I have been a vocal proponent of returning 
environmental rulemaking to its constitutional roots, something 
known as cooperative federalism.
    Unfortunately, over the past eight years, that once noble 
partnership that balanced state and federal responsibility and 
accountability has morphed into something better described as 
coercive federalism where the State is more pawn than partner.
    In Arkansas, we have been authorized to administer every 
program that the EPA makes eligible for state delegation, but 
despite that delegated authority and our status as a co-
sovereign, the EPA treated us, and other similarly situated 
states, as petulant children with the EPA acting as a 
``helicopter mom'' of the worst order.
    Only days before Administrator Pruitt took the reins of 
EPA, correspondence between EPA and the Department of Justice 
referred to Arkansas as a ``recalcitrant'' litigant. And at 
times we were. It was our only course left available to states 
that would not assimilate or accept the EPA overreach.
    However, I am pleased to report we are amidst a season of 
change. In short time Administrator Pruitt has been in place, 
we are seeing extraordinary change in the environmental 
landscape. The State's struggle and promise of progress is well 
illustrated using a story frame penned by Steve Straessle, the 
Principal of Catholic High School for Boys in Little Rock, 
Arkansas. Some of you may have heard of the school where 
Congressman French Hill's son attends when it entered the 
national spotlight this year for turning away helicopter 
parents.
    On the first day of school, stop signs were placed on the 
school's entrance that read, ``If you are dropping off your 
son's forgotten lunch, books, homework, equipment, et cetera, 
please turn around and exit the building. Your son will learn 
to problem-solve in your absence.'' It is not accidental that I 
have chosen this frame to--for my testimony with the story of 
Principal Straessle's year-end letter.
    In this letter, he also recalled a hike he took with his 
children along Tennessee's Fiery Gizzard Trail where he noticed 
a phenomenon that occurred again and again: trees growing out 
of boulders along the creek. He noticed these were not twigs 
but rather instead were 3-foot-diameter-thick trees that 
reached several stories into the sky. He noted it was curious 
that boulder trees were as tall as the others further into the 
bank, but the root systems were wrapped around rocks that 
served as foundation. Fate had deposited seeds on top of the 
rocks, and these seeds had grown over the decades.
    He continued, ``You can't help but think those trees, as 
they grew, looked longingly at the comrades on fertile ground 
that had no visible problems as they sprouted. The other trees 
were on solid soil, and their root depth was uninhibited. But 
boulder trees had to figure a way around obstacles. They had to 
wrap their roots around the boulder, envelop it, and work 
painstakingly to reach the soil.'' Impressively, these trees 
must have struggled as they leaned far over the creek and into 
the sunlight that otherwise blocked by better-fed vegetation.
    ``Boulder trees have an unfair life. They start in thin 
dirt on top of a rock. But those trees persevered. Instead of 
cursing the rock, they made those rocks into the firmest 
foundations and reached evermore for sunlight that would 
nourish them, that would help them grow. Reaching for the light 
is important.''
    And that is why I am testifying to you today. We states 
have wrapped our roots around rocks, reached over the creek and 
into the sun. Over the past decade, we withstood sparse soil 
and overcast skies. We, like boulder trees, wrapped ourselves 
around what held us back, ``enveloped it, smothered it with 
strength, and used it as pedestal for engagement and a rallying 
cry for perseverance.''
    Often with limited resources, we states sought ways to be 
efficient in affecting environmental outcomes and to be 
flexible with the ability to flourish with less. While the bank 
trees flourished in the regulated growth and uniformity, we 
learned that progress and process were not synonymous. A 
prolonged permit yields protracted protection. We observed 
firsthand the futility of attempting to turn a boulder tree 
into a bank tree. State and federal differences should define 
us, not divide us.
    As we move forward into the light, know that we boulder 
trees, while unique in our appearance en route to soil and sun, 
are no less mighty than the bank trees. In fact, the State's 
struggle to grow has enhanced our strength. The country's 
landscape is enriched when we can recognize the beauty of 
forest and trees. We look forward to working with our federal 
partners as we reach for the light together.
    Several specific paths have been offered in my written 
comments that will return us to our constitutional roots where 
states and EPA are partners in planting of progress and 
harvesting of success.
    And I offer a final optimistic prologue. In a personal 
meeting with Administrator Pruitt, he assured me that EPA will 
seek new paths of partnership, promising that ``the future 
ain't what it used to be.'' I am encouraged that we states will 
be allowed to implement and execute legally sound and 
scientifically informed environmental policy from our firmly 
rooted, rock-solid foundation as opposed to shifting federal 
sands of late. If given the opportunity to lean toward the 
light together, we can achieve success of biblical proportion.
    Thank you so much, and I look forward to your questions.
    [The prepared statement of Ms. Keogh follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Biggs. Thank you.
    Dr. Swackhamer for five minutes.

            TESTIMONY OF DR. DEBORAH L. SWACKHAMER,

             PROFESSOR EMERITA, HUBERT H. HUMPHREY

        SCHOOL OF PUBLIC AFFAIRS AND PROFESSOR EMERITA,

                 ENVIRONMENTAL HEALTH SCIENCES,

                    UNIVERSITY OF MINNESOTA

    Dr. Swackhamer. Good morning, Chairman Biggs, Ranking 
Member Bonamici, and distinguish Committee Members. My name is 
Deb Swackhamer, and I'm a former Professor from the University 
of Minnesota where I held appointments in the Humphrey School 
of Public Affairs and in the School of Public Health. I'm 
trained as an environmental chemist, and I have worked on 
environmental policy for the State of Minnesota. I have served 
as Chair of the U.S. EPA Science Advisory Board, and I 
currently serve as Chair of EPA's Board of Scientific 
Counselors.
    That said, I speak to you today as an environmental science 
and policy expert and not on behalf of the U.S. EPA or the 
State of Minnesota. My perspectives and statements are mine 
alone.
    The hearing today is to explore the tension between states 
and EPA regarding environmental regulation. My comments today 
are to underscore the critically important role of science in 
environmental decision-making, regardless of whether it takes 
place at the state or the federal level.
    Our federal environmental statutes from the 1970s set up a 
national regulatory framework that honors and empowers the 
roles of states. The federal role is to ensure consistency 
across multijurisdictional watersheds and airsheds and to 
establish a minimum bar of environmental quality that allows 
our citizens to safely drink our water, eat our fish, and 
breathe our air. The states' role is to implement this 
framework because they know their states better than 
Washington, D.C.
    This framework works for a number of reasons. First, we are 
well aware that air and water do not respect or follow 
geopolitical boundaries. Second, this framework works because 
of the inclusion of robust science. The essence of 
environmental protection is the protection of our citizens' 
health. To protect public health, you must have clean air and 
safe drinking water. In other words, you must have a clean 
environment.
    To achieve this, one must establish acceptable exposures of 
pollutants using the best scientific evidence available. Thus, 
science is the bedrock, the foundation of human health and 
environmental protection. This scientific foundation must be 
independent of politics and must be robust. Our federal EPA and 
our state environmental agencies must have the best available 
science or they will not be protecting public health. Without 
science supporting environmental decision-making at any level, 
public health loses.
    Environmental issues are complex, and thus the science to 
address them requires many disciplines and perspectives. Much 
of the scientific evidence that is needed to protect public 
health can be done more efficiently and effectively at the 
federal level where they can take advantage of national 
laboratories, multidisciplinary scientific capacity, and access 
to national and international scientific communities.
    However, the President's proposed 2018 budget reduces 
investment in EPA's science programs, an ominous indication 
that the foundation of science to support policy is being 
marginalized by the current Administration. If not EPA, then 
who will provide the needed scientific evidence? There is no 
indication of how the scientific capacity would be replaced. In 
fact, pass-through programmatic dollars to the states are also 
cut in the proposed budget.
    Cutting environmental protection funds to the states will 
further decrease science-based policy and the states' capacity 
to produce sound policy. States will not be able to make up the 
difference. This results in a double lose-lose situation for 
public health.
    EPA's job is not finished. The proposed cuts in science 
budgets and the marginalization of science in environmental 
protection have been justified by some that we have done 
enough, that these investments are no longer necessary. Nothing 
could be further from the truth. We've made tremendous progress 
in the improvement of our environment and in reducing illness, 
but it is a myth that we can coast on these successes.
    Four out of 10 of our nation's lakes and rivers do not meet 
basic water quality standards. It is estimated that more than 
200,000 people die prematurely each year in the United States 
as a result of air pollution exposures. These exposures cost 
the U.S. economy over $100 million per year in health costs. 
Marginalizing science will make these numbers worse. The 
majority of U.S. citizens do not want to go backward.
    What is at stake if there's a decline in support of science 
at the federal and state levels? Should we follow this path 
that will lead to a decline in public health, a decline in our 
community's health, and put our country at a competitive 
disadvantage? It erodes the future health and well-being of our 
children and our grandchildren. Investing in and maintaining 
our preeminence in environmental science and ensuring its use 
in sound environmental policy will put us on a much better 
path.
    Thank you for the opportunity to speak today.
    [The prepared statement of Dr. Swackhamer follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Biggs. I thank each of the witnesses for their 
testimony. I appreciate it.
    Members are reminded that committee rules limit questioning 
to five minutes, and I recognize myself for five minutes.
    Director Cabrera, can you tell me how much work do states 
put into creating their SIPs and whether you think there might 
be a disincentive for states to use their resources to create 
these plans when the EPA tends to replace them easily with 
federal implementation plans? And we have up the regional haze 
allusion--the modeling that you alluded to in your statement.
    Mr. Cabrera. I can tell you that in the states we look 
forward to developing the state implementation plans because we 
feel that state implementation plans are better than federal 
implementation plans 100 percent of the time.
    I can also say that it is a bit disheartening when we 
develop these plans through extensive modeling, extensive 
scientific study and calculation only to have EPA officials 
from our region nitpick and really question all of our 
analysis.
    In the end, we're put in a position where we have to comply 
with EPA's demands because they always have the ability to 
reject our plans and then issue a federal plan. So it puts the 
states in a very awkward position of we have to comply or else 
we're faced with the threat of a federal implementation plan.
    Chairman Biggs. You know, Arizona's ability to comply with 
ozone standards is often hindered by naturally occurring 
weather events such as dust storms. These dust storms, for 
instance, blow dust from rural areas to cities, which result in 
those areas exceeding the national ambient air quality 
standards. EPA has an exceptional events exemption to this to 
discount for such naturally occurring events. In your opinion, 
does the exceptional events exemption work in practice, and 
what are the problems with the execution of this exemption?
    Mr. Cabrera. So for dust exceptional events, the State of 
Arizona was a leader across the nation in developing a 
streamlined approach to making those demonstrations. In other 
words, when there is a major wind event that creates a lot of 
dust in the air, it is inappropriate to regulate businesses for 
something that nature did. As a leader in that area, we shared 
our process with the EPA. They then implemented an exceptional 
events rule.
    Unfortunately, they added to our streamlined process what's 
called mitigation measures. So according to those rules, which 
were modeled on Arizona's initial efforts, we now have to 
figure out a way to mitigate for nature. And that is a very 
difficult thing to do, and I would state that it's not really 
scientifically possible.
    Chairman Biggs. In particular with these dust storms that 
we get to see in the Phoenix area, can you describe how big 
they are and how the local news seems to be able to understand 
it but the federal administrators don't?
    Mr. Cabrera. One of the things that's a bit disappointing 
is when all the major news media pick up on what is called a 
haboob, which is a 100-plus-foot-high wall of dust that looks a 
lot like the movie from The Mummy. And everybody understands 
that it's a natural event to have EPA then require us to spend 
tens of thousands of dollars producing a document to explain 
what everybody else saw and documented through the news media. 
So in that respect it's a bit wasteful to have to explain an 
exceptional event that everybody considers obvious.
    Chairman Biggs. Can you speak to the impact of downwind 
ozone on Arizona areas that are currently in nonattainment? 
Particularly, what's the greatest contributor to ozone in 
Arizona and do the current EPA standards account for that?
    Mr. Cabrera. EPA's own emissions calculations suggest that 
in certain areas of the State, especially in Yuma, Arizona, 
which will be found to be in nonattainment for the new ozone 
standard, the overall proportion of ozone comes from either 
California, Mexico, or other international sources. And so it 
puts us in a very awkward spot of applying regulation on a 
community that did not create the pollution. And it's a 
community in Yuma County that already has a very high 
unemployment rate. And so what we're doing in effect is 
rewarding upwind states like California with longer compliance 
time frames because they are in extreme nonattainment, and then 
imposing more restrictive regulation on counties that did not 
create the pollution in the first place.
    Chairman Biggs. Thank you. And I'm just about out of time 
so I am going to go to Ranking Member Bonamici.
    Ms. Bonamici. Thank you, Mr. Chairman.
    Dr. Swackhamer, nine of the 18 members of the EPA's Board 
of Scientific Counselors had their terms expire on April 27, 
and all nine of those members were previously told that their 
names would be submitted to the EPA management for renewal to 
serve a second three-year term on the board. And that had been 
the normal practice in the past. But a week later, all nine 
board members were told that their terms would not be renewed, 
and apparently, an EPA spokesman said that Administrator Pruitt 
wanted more industry representatives to serve on the board.
    So I know you're the Chair of the board and--but I know 
you're here in your private capacity, but will you please 
answer a couple of questions briefly from your perspective? And 
then I have another question.
    First, were you surprised about the decision to not renew 
the terms of those nine members, and were you given any 
explanation about it?
    Dr. Swackhamer. Chairwoman Bonamici, we were all a little 
surprised, those of us who sit on the committee. I was 
surprised simply because it is--it was expected that those 
terms would be renewed. Typically, terms are renewed unless 
there is some reason such as the expertise is no longer needed 
or the person chooses to stay, not----
    Ms. Bonamici. Were you given an explanation?
    Dr. Swackhamer. No, other than the--what we all saw in the 
press and what came out from the--from Administrator Pruitt 
spokesman, who said that they wanted to not just renew a 
previous Administration's appointments and that they wanted to 
broaden the--more of a regulatory--the regulated community 
involvement in the committee.
    Ms. Bonamici. So now it's my understanding that two board 
members resigned in protest after the dismissal, so now instead 
of 18 members, there's only five, including you. Are you 
concerned about the future of the board in light of that?
    Dr. Swackhamer. Let me just clarify those numbers. So nine 
members of the 18 had served one term and were expected to be 
renewed. All nine had requested renewal. The four members had 
rotated off because they finished a second term, so they were 
done with their term limit and they were rotated off. The two 
members that you more recently may have heard about were 
members of a subcommittee. So the nine plus the four left us 
with five members left on the Board of Scientific Counselors.
    I'm obviously concerned. My committee is no longer 
populated, so I'm anxious to make sure that it gets repopulated 
as quickly as possible. And my understanding is that that's 
part of what the Administration is planning to do is to 
repopulate this committee.
    Ms. Bonamici. Thank you. And my second question is changing 
topics a bit. I fear that the Trump Administration's actions to 
date and planned policies will lead to some public-health 
tragedies in individuals states and across the nation. The 
committee majority's focus on expanding the role of states 
while limiting the EPA's role in developing science-based 
safeguards is also troubling. For example, the Administration 
is proposing to cut the EPA's budget by more than 30 percent, 
but they also want to cut grants to states. Five state 
environmental agencies depend on the federal government for 
more than half their budgets, and more than half of all state 
environmental agencies rely on the federal government for at 
least a quarter of their budgets.
    These cuts will have devastating consequences across the 
United States. Attempts to increase the burden on states to 
hold steady or improve their commitment to public health and 
environmental protections will simply not be possible. Many of 
us came from State Legislatures, and we know the budget 
challenges already. The end result will be less federal 
oversight, fewer scientific studies on environmental hazards, 
and more damage to the environment and public health.
    You mentioned in your testimony also air and water know no 
state boundaries. So can--from a--can you from a scientific 
perspective, do you agree that turning over more regulatory 
authority to states while scaling back the role of the EPA puts 
public health at greater risk? And if so, can you tell us how 
and why?
    Dr. Swackhamer. My concern is that the science that's 
needed to develop good environmental policy, whether it's done 
at the state or federal level, will simply not be available if 
the path that we're going down currently continues to be 
followed. I am not going to comment whether states or the 
federal government should be making these standards or 
regulations, with all respect to my two colleagues here. It's 
more that I want to make sure the science is used it to make 
sure that the states have the adequate science that they need 
and that the federal government has the adequate science that 
they need to move forward and to protect human health. If we 
don't have the science, we're not going to protect public 
health.
    Ms. Bonamici. I appreciate that. I do want to note it's my 
understanding that in his confirmation hearing Administrator 
Pruitt had suggested that he may disallow or at least review a 
waiver to allow states to issue more stringent rules like 
California with their auto emissions, which I find to be 
blatantly inconsistent.
    And before I yield back, Mr. Chairman, I'd like to ask for 
unanimous consent that a bipartisan letter be introduced into 
the record. This is a letter to Administrator Pruitt expressing 
concern about the dismissal of several members of the Board of 
Scientific Counselors at the EPA.
    Chairman Biggs. Without objection.
    [The information appears in Appendix II]
    Ms. Bonamici. Thank you. And I yield back. Thank you, Mr. 
Chairman.
    Chairman Biggs. Thank you.
    The Chair recognizes the gentleman from Florida, Mr. Posey.
    Mr. Posey. Thank you, Mr. Chairman.
    I've never met anyone who wants to have dirty air or dirty 
water for themselves, their family, or future generations. And 
I've always pretty much taken the position that the government 
closest to the people works best, is usually the most 
efficient. I'm a strong believer in the idea that people who 
actually live and work in an area are best positioned to lead 
efforts to protect their environment. Local leaders have 
firsthand knowledge of the unique challenges their environment 
faces and are invested in the health and sustainability of 
their surroundings in a way that bureaucrats in far-off 
government offices never could be.
    Unfortunately, there are those who think Washington has a 
monopoly on both good ideas and compassion in stewardship for 
the environment and who would think--seek to displace the state 
and local role in environmental policymaking. To me, I think 
that would be a mistake. Of course, I understand the need for 
cooperation at all levels of government for maximally effective 
government stewardship and environmental stewardship. However, 
I'm concerned that during the past Administration we moved from 
federal cooperation to coercion. It's essential that we get 
back to common ground I believe.
    Ms. Keogh, can you please describe what cooperative 
federalism means and how this model may have been undermined?
    Ms. Keogh. Thank you. We at the State of Arkansas have seen 
a number of programs where the cooperation that was helpful to 
the State to result in an efficient program was undermined 
through federal intervention and federal plans similar to what 
our--my colleague from Arizona has experienced in that regional 
haze maze. We've also seen areas where we've been second-
guessed on our science similarly in SO<INF>2</INF> designations 
that we're recently going through, as well as even in our 
water-quality programs where duplication results in redundancy 
and use of data that's not even vetted through peer review.
    So we are concerned that we do not have the right 
relationship with EPA, and we're working strongly with this 
Administration and we appreciate their support to work with us 
to find a more efficient, effective delivery not only with 
states but also with our local partners. I'd like to say local 
governments, private business, and citizens can be meaningful 
partners and not considered polluters. Thank you.
    Mr. Posey. Thank you. How do you think we get back to this 
cooperative federalism approach?
    Ms. Keogh. Well, I think it's important to have the 
conversation we're having today, let states inform science 
policy early, and work to streamline decision-making. We at the 
states collectively and individually have been working on a 
blueprint to give specific recommendations to the 
Administrator, and we hope that that will benefit them. We want 
to build science into the process. We understand there's an 
important role for EPA to play, and we want to talk about those 
roles and responsibilities not only of government but of those 
outside government to affect positive solutions in what is now 
a 45-year-old program.
    I'm ready to let my children grow up and leave the house. I 
think they can do as well or even improve on what I've 
accomplished in government, and so I'm looking forward to this 
new day in environmental progress.
    Mr. Posey. Thank you very much.
    Mr. Cabrera, could you give us an example from your 
experience where a likely well-intentioned federal regulation 
has actually caused more harm or difficulty for state 
environmental management than any benefit it might have helped?
    Mr. Cabrera. So I think that--Mr. Chair, members of the 
committee, I believe that the regional haze program is a 
perfect example. The regional haze program is well-intentioned, 
and we do not disagree with it. President Grant first 
established Yellowstone National Park for everybody to be able 
to enjoy it, and we believe that having clear visibility is 
important.
    Having said that, when EPA completely ignored the Grand 
Canyon Transport Commission's recommendations, what it did is 
it put us on a lengthy 20-year process that resulted in no 
visible improvement to the Grand Canyon. So after 20 years, 
four lawsuits, lots of activity, lots of waste by both the 
State and the federal government and lots of stakeholders, the 
result is no visible improvement. And so we think that EPA's 
engagement in that arena has not produced the desired result.
    Mr. Posey. Could you once again state the cost of that 
project?
    Mr. Cabrera. The estimated cost was over $500 million for 
controls put on power plants in the vicinity of the Grand 
Canyon.
    Mr. Posey. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman Biggs. Thank you.
    The Chair recognizes the gentleman from Florida, Mr. Crist.
    Mr. Crist. Thank you, Mr. Chairman.
    Dr.--am I saying it right--Swackhamer? Thank you. So you 
taught at the University of Minnesota?
    Dr. Swackhamer. Yes, I did, for almost 30 years.
    Mr. Crist. Wonderful. I represent Florida's 13th 
Congressional District. It includes St. Petersburg, Clearwater. 
It is a peninsula, literally on the peninsula of Florida. So 
our shorelines are impacted by severe storms and constant 
coastal erosion, and as a result, there are real concerns by my 
constituents about tourism, which is how many of us make a 
living in that part of the State, and we are worried that the 
erosion may wash it away bit by bit by bit.
    So my question would be how important is a federal agency 
such as the EPA in giving aid to states to understand the 
science of climate change and helping them to cope with 
realities of climate change that are already there?
    Dr. Swackhamer. That's a great question. It's really 
clearly up to the states to be acting on their own 
catastrophes, their own issues, whether they're slow-moving or 
fast-moving emergencies. However, it's unusual for one State to 
have the scientific expertise to address a crisis or to address 
something that is a complicated problem, how that erosion 
occurs, what the impacts are to the coastal zones in Florida, 
combine that with the nutrient problems that are carried with 
the soil that erodes, you end up with a problem that is very, 
very complex. And it's--it does require a large 
multidisciplinary effort of science to understand that. Then, 
you can actually mitigate it or implement some change, and that 
definitely happens at the State level.
    But to do the science, to understand the issue, to come up 
with mitigation strategies, to come up with policies that may 
alter the insult that's occurring, that requires robust science 
that for the most part--I'm not saying all science has to be 
done at the federal level by any means--but the basic science 
that leads to an understanding of these issues is largely done 
at the federal level. And the reason is is that the federal 
level has access to resources. It has access to many more 
laboratories, access to many more people from many more 
disciplines, and it has access to the international community, 
which also does some pretty good science.
    So it's that play between understanding the issue at the--
using federal resources and then working with states to 
actually fix it.
    Mr. Crist. Thank you. You know, I come from a State where 
my successor as Governor is reported to have not wanted people 
in his administration to use the term climate change. So I 
think there's an extra overlay as it relates to my constituents 
to be able to have another agency that can be brought to bear 
to help protect us and for future generations of Floridians, 
let alone Americans.
    In your opinion, would expanding the role of the states in 
the EPA rulemaking enhance or hurt our ability to respond to 
climate change?
    Dr. Swackhamer. I'm not sure I'm going to directly answer 
that question as you would--as you might want. I----
    Mr. Crist. You have that right.
    Dr. Swackhamer. I think that as long as the science is 
behind the actions taken, whether it occurs at a state or 
federal level, is the most important thing. But if you take 
something like climate change, which is larger than any State, 
the impact on coastal zones goes all up and down the eastern 
seaboard, the Atlantic coastal areas, up and down the other 
coasts, including the Great Lakes, we can't view this as a 
single-State issue. And so the more the states cooperate with 
the federal government on understanding these broad issues and 
these bigger threats, that's where the federal government role 
really shines.
    If it's a smaller issue that really just is held within a 
State, that's a different issue. Then, the State can deal with 
it. But many of our environmental problems are--don't follow 
State boundaries. They're bigger than states. They--there's 
airsheds involved, there's watersheds involved, there's in some 
cases international boundaries involved. And so it--there's not 
a set answer that states should do more or the feds should do 
more. It's really that these problems are very big and complex, 
and they need--you need to harness the best possible science 
you possibly can to address them.
    Mr. Crist. Thank you. I must confess that my past brings a 
bit of a bias to how I look at these issues. When I was both 
Attorney General of Florida and then Governor of Florida, we 
dealt with some significant environmental issues, hurricanes 
among them, like a ton of them while I was Attorney General, 
and then while I was Governor, the BP oil spill. So I was 
delighted to be able to have the federal government, my 
American Government, come to the aid of my State of Florida in 
both of those circumstances, without which we would have been 
in a bad place.
    So thank you for your testimony, Doctor.
    And thank you, Mr. Chairman.
    Chairman Biggs. Thank you.
    The Chair recognizes the gentleman from Texas, Mr. Babin.
    Mr. Babin. Thank you, Mr. Chairman.
    And I want to tell all the witnesses we appreciate you 
being here. Thank you.
    There was something--I just wanted to get some stuff 
straight in my mind on the Board of Scientific Counselors. 
There's been some controversy and discussion on this, and I'd 
like to ask Dr. Swackhamer if you don't mind. At the end of 
April--excuse me, at the end of April, nine members of the BOSC 
finished three-year terms, right?
    Dr. Swackhamer. One three-year term.
    Mr. Babin. One three-year term. Did the EPA solicit 
nominees to fill positions on the BOSC before these members 
finished their three-year terms?
    Dr. Swackhamer. I really can't speak to that other than I 
know there was not a public call because I would have seen the 
Federal Register notice. So I don't really know what was the 
intention of EPA inside EPA at that time.
    Mr. Babin. Okay. Well, I think the answer was yes, EPA 
solicited nominees for these positions and received hundreds of 
recommendations.
    Dr. Swackhamer. If I could correct that, that wasn't based 
on a new call for solicitations. That's based on the fact that 
when they populate any of their advisory boards, they take 
nominations, and those nominations stay in place over time. And 
then they can rely on those nominations also when they go to 
fill new positions. But that wasn't based on a recent call.
    Mr. Babin. Okay. Well, as I understand it, EPA's Office of 
Research and Development officials recommended the renewal of 
the nine members of the BOSC without reviewing hundreds of 
nominations that they had received. Is that--are you aware of 
that?
    Dr. Swackhamer. My understanding is that the Office of 
Research and Development recommended that those nine members 
that were already members of BOSC----
    Mr. Babin. Be reappointed.
    Dr. Swackhamer. --be renewed.
    Mr. Babin. That's right. But there were hundreds of 
nominations that were recommended.
    Dr. Swackhamer. There were----
    Mr. Babin. And----
    Dr. Swackhamer. --nominations--they were nominations that 
have been received by the Agency over a period of time, and I 
can't speak to when those nominations came in, but they would 
have been solicited some time ago.
    Mr. Babin. Well, I think Administrator Pruitt had asked for 
nominations, and they came in from various sectors of the 
industries around----
    Dr. Swackhamer. He's not official--he's not issued an 
official request for nominations to my knowledge.
    Mr. Babin. Well, if I'm not mistaken, they have hundreds of 
recommendations and applications.
    Dr. Swackhamer. And they would have come in before he was 
Administrator just to be clear.
    Mr. Babin. Okay. Well, let me just understand this. Instead 
of rubberstamping the renewal of members of the BOSC, a 
decision was made to review the credentials of hundreds of 
individuals nominated to be on the board, including members up 
for renewal and then choose who would serve a three-year term, 
whether it'd be a new term or whether it would be someone who 
was reappointed on the BOSC. Why would such an open and honest 
process be an issue to you?
    Dr. Swackhamer. So let me clarify also, I think that the 
process of selecting members to serve on any of the advisory 
boards at EPA is an open and competitive process.
    Mr. Babin. I would hope so.
    Dr. Swackhamer. It absolutely in my experience has been. 
I'm not part of--as Chair of either of the committees that I've 
served on, I've not participated in the selection process, but 
I do know how the nomination process works, and it's very 
transparent and it's very fair. I believe that Administrator 
Pruitt's intention is to continue to do that process, and we 
will repopulate this committee.
    Mr. Babin. Okay. Well, I think as far as a time, let me ask 
you this. The next BOSC meeting is scheduled for August. Is 
that not correct?
    Dr. Swackhamer. That's a subcommittee meeting. That is 
indeed----
    Mr. Babin. Okay.
    Dr. Swackhamer. --scheduled for August.
    Mr. Babin. So is there enough time--there seems to be 
enough time for the BOSC to be fully staffed up based on a 
large pool of these nominees. Isn't that correct as well?
    Dr. Swackhamer. I believe that EPA staff will have to work 
very diligently to get enough members to fill out the rest of 
the vacancies. But yes, it's quite possible.
    Mr. Babin. Three months--you don't think three months is 
enough time to get this done then?
    Dr. Swackhamer. Typically, there's quite a vetting process. 
Once nominations are received, then there is a lot of vetting 
and a lot of review of conflict-of-interest issues, financial 
issues, obviously expertise. They want to get a committee that 
has the correct balance of expertise, broad expertise, and so 
there's a lot of review that goes into play looking at the 
scientific background of the scientists, looking at their 
publications, looking to see if they have an esteemed record, 
looking to see if their expertise matches what is needed for 
EPA. So there's a whole lot of vetting that takes place in 
between the nomination process and the request to join the 
committee process.
    Mr. Babin. But there's no rule that says we have to 
rubberstamp the----
    Dr. Swackhamer. Absolutely not.
    Mr. Babin. --a second term for everybody that sits on it, 
right?
    Dr. Swackhamer. Absolutely not. And I didn't mean to imply 
that there is----
    Mr. Babin. Okay.
    Dr. Swackhamer. --a rubberstamp that goes on. Again, if a 
member is not contributing or if a member is--their expertise 
is no longer needed, then often they are asked not to ask for 
renewal or not to agree to renewal.
    Mr. Babin. Okay. Thank you, Dr. Swackhamer.
    And I yield back the balance of my time, which is zero.
    Chairman Biggs. That is correct, sir.
    The Chair recognizes the gentleman from Alabama, Mr. 
Palmer.
    Mr. Palmer. Thank you, Mr. Chairman.
    Dr. Swackhamer, you said there are--200,000 people die each 
year from air pollution.
    Dr. Swackhamer. Die prematurely.
    Mr. Palmer. But still, it's 200,000 people die from air 
pollution?
    Dr. Swackhamer. That's correct.
    Mr. Palmer. I've got the top-10 leading causes of death in 
the United States, and it's not listed among any of them. The 
closest thing that I can come to that might be pneumonia, and 
there's 50,000 something people. I don't think you can 
attribute----
    Dr. Swackhamer. Air pollution is the exposure. Actually, 
the illnesses that cause the death are what you're probably 
looking at so----
    Mr. Palmer. Well, you said air pollution causes----
    Dr. Swackhamer. --heart disease and lung disease, 
respiratory disease are those that are caused by air pollution.
    Mr. Palmer. You're quoting one study from 2013 from MIT.
    Dr. Swackhamer. No, I--actually, I'm quoting the World 
Health Organization that just completed a very large study----
    Mr. Palmer. I saw that, too.
    Dr. Swackhamer. Okay. That's what I'm quoting.
    Mr. Palmer. I think it calls into question, though, the use 
of data. And I also wonder, do you feel like you're entitled to 
another term on the----
    Dr. Swackhamer. Entitled? No, I don't think anyone on the--
--
    Mr. Palmer. Do you think----
    Dr. Swackhamer. No, I do not think entitled----
    Mr. Palmer. You don't think it makes sense for 
Administrator Pruitt to have the opportunity to populate his 
committees and his advisory boards with the people that he 
wants to put through a vetting process to see if he can improve 
the quality of the boards or advisory groups that he wants to 
work with?
    Dr. Swackhamer. He absolutely has that authority.
    Mr. Palmer. Then this shouldn't be an issue. I'm going to 
ask----
    Dr. Swackhamer. I would say that it just was an unusual----
    Mr. Palmer. --Mr. Cabrera a question.
    Dr. Swackhamer. --an unusual selection. That's all.
    Mr. Palmer. Well, maybe in the last eight years, but I 
think that he has every right to make a decision on who he 
wants to have advising the EPA.
    Dr. Swackhamer. He absolutely does.
    Mr. Palmer. Thank you.
    Mr. Cabrera, I've watched what's gone on the last few years 
of the EPA when the EPA was created. It was created with the 
understanding of cooperative federalism in that Congress would 
pass the law, the EPA would write the rule, and then the states 
would do the implementation with broad latitude as long as they 
achieve the objectives. Did you believe that that is still the 
operational dynamic that exists today?
    Mr. Cabrera. I believe--Mr. Chair, members of the 
committee, I believe that early in the history of environmental 
protection it is true that in--that the states sometimes lacked 
the expertise to implement well, but that was 40 years ago. And 
in the--today, we can implement well. We can write rules. We 
can do the science. We can estimate emissions. We can protect 
our water, our soil, and our air. And I think that EPA perhaps 
has not caught up with the times and understood that in the--
today, states are well-equipped. We have mature programs that 
are technically competent, and I don't think that EPA has 
recognized in every case that the states can implement 
environmental laws well, and in fact in many cases better.
    Mr. Palmer. I think you might have added that they usurp 
state authority in many cases to implement the laws. And I will 
give you a case in point is the ozone rule, which is a bigger 
issue in Arkansas I think perhaps than in Arizona. It's a 
certainly a big issue in Alabama--is that--and we had 
Administrator McCarthy I think before this committee, and I 
asked her point blank about the new ozone rule, which will be 
arguably the most expensive environmental regulation ever 
imposed on the U.S. economy.
    And it was interesting to note this is probably I think in 
the spring of 2015 that they had just sent the implementation 
guidelines to the states for the 2008 rule, yet they were 
introducing a new rule, which they also admitted the technology 
didn't exist to achieve that standard. And there was an 
internal memo in the EPA that indicated that if we didn't do 
anything, we would achieve that standard in ten years. How does 
that impact your economic planning, Ms. Keogh, in Arkansas? And 
then you can respond, Mr. Cabrera, afterwards.
    Ms. Keogh. Thank you for the question. We happen to be one 
of the few states that now attain all the standards and even 
the proposed standard, but we did suffer greatly, particularly 
a low----
    Mr. Palmer. Let me interrupt you there. You've already 
achieved the standard without the technology even though 
there's no technology that really exists that would allow other 
states to achieve that? You've already achieved it?
    Ms. Keogh. That's correct.
    Mr. Palmer. Thank you. Go ahead.
    Ms. Keogh. We had a small community, a rural community that 
was being impacted, who models showed that in 10 years--and 
this was ten years ago--that the area would re-attain, yet they 
were held under federal mandates to--under nonattainment for 
ten years, held hostage to the local economic development 
interests until those standards and those technologies became 
fully--across--available across transportation and other 
sectors. And so now that area does attain, and that shows that 
the local area--even though everyone knew ten years ago that 
this was the solution, the local area was harmed in that ten-
year period. The rules and the laws that undermine that--or 
underpin that decision need to be changed to let local 
communities thrive while problems are being solved. Thank you.
    Mr. Palmer. Mr. Chairman, if I may, I'd just like to follow 
up on that. When you talk about public health----
    Chairman Biggs. The gentleman's time is expired but you may 
follow up.
    Mr. Palmer. Thank you for your indulgence, sir.
    We've had a lot of discussion about the role of science in 
the EPA and improving public health. I'd just like to point out 
that some of things that the EPA has done has cost thousands 
and thousands of jobs and perhaps some--the best thing we can 
do for an individual or a family's health is a good-paying job. 
And Ms. Keogh just gave an example of how heavy-handed EPA--
even though they were achieving compliance--impacted their 
local economy in a very negative way. I thank her--I thank the 
witness for her testimony.
    Chairman Biggs. The Chair recognizes the gentleman from 
Texas, Mr. Weber.
    Mr. Weber. Thank you, Mr. Chairman. I'm going to have a 
statement that I want to read into the record, and I hope I 
have time for a question at the end of it.
    When I was in the Texas House, I was on the Environmental 
Reg Committee. Our colleagues across the aisle said you can't 
trust industry because all they care about is the almighty 
dollar and their bottom line. They don't care about people or 
their workers. So my response to them was and still is if you 
even wanted to assume for a minute they operated under the idea 
that the officers and the managers of a company don't give a 
hoot about their coworkers, which is such a salacious, 
ridiculous assumption, consider this: Were there to be a 
release, a fire, a spill or any other such calamity that hurt 
people, their lives, and the environment, no one wanted that. 
It stops production, it costs lots of money in lawsuits, and it 
hurts people. Conclusion: Of course the businesses, at least 
the overwhelming majority, are good actors.
    As for the bad actors, the states, particularly Texas--
Texas has the TCEQ, Texas Commission on Environmental Quality, 
which I understand is the second-largest regulatory agency in 
the world, second only to the--behind the EPA. That agency will 
ferret out the bad actors and do everything we can to keep our 
neighborhoods clean and our people safe. To do anything less 
would be unthinkable.
    States should not be handcuffed by the expenses and the 
burdens put on them by the EPA. So this idea somehow that 
states won't take care of their people and their environment is 
a bogus one. If you'll pardon the analogy, it doesn't pass the 
smell test. But I guess that those on the other side need a 
strawman. Then the big, bad businesses will serve their purpose 
of a strawman, as long as that straw was grown with 
environmentally friendly fertilizer if you'll pardon the pun.
    So that's the statement I want to get in the record because 
it's crazy that we somehow think industry should be held 
accountable; they don't really--aren't intent on protecting 
people and keeping the environment clean.
    My question is for you, Ms. Keogh. In what ways would you 
point out that show the EPA has been either--has ignored 
Congress or the Constitution when it comes to the states' roles 
in implementing environmental regulations? In other words, the 
states have a role. Has the EPA ignored the Congress or the 
Constitution when it--in my opinion, it usurps its authority 
and seeks to direct states to act outside their constitutional 
purview?
    Ms. Keogh. Thank you for that very thoughtful question. We 
in Arkansas have seen that in real life in the example of our 
regional haze plan where we've been unable to affect a strong 
scientific and legal-based document that was meeting all the 
requirements, and yet we find ourselves ten years later with no 
advance in pollution control but many dollars invested in legal 
discussions----
    Mr. Weber. That could have been used better off in the very 
reason it was needed, not--instead of fighting the legal 
battles.
    Ms. Keogh. Absolutely.
    Mr. Weber. Sure.
    Ms. Keogh. And we understand it's important that our 
programs conform and comply with law, and yet we work with EPA 
often and we find that the programs that we are focusing on are 
well beyond the legal requirements set forth in the either 
enacted law or constitutional basis.
    Mr. Weber. Let me point out how out of control the EPA has 
been in some instances. When I was in the Texas House, we had a 
Region 6 EPA Director there in the north part of Texas who had 
to resign because video was uncovered of him, I don't know, a 
year or two before he became Regional Director--this had been 
going back five, six years now.
    In the video--they had a video of him saying that 
companies--industry needed to be treated like the Roman 
gladiators did when they invaded a country. He literally said 
in the video the Roman gladiators would come into account and 
crucify the first five men they found and make an example of 
them. And he said that's the way the EPA needs to do industry.
    Now, how does one justify that kind of mindset? It's gotten 
that prevalent in a regulatory agency that in my opinion is out 
of control. It needs to be regulated by the states. I so 
appreciate--I think it was Mr. Cabrera's statement that 40 
years ago that was the case, states weren't there, but we've 
caught up. Did I mention that Texas has the second-largest 
environmental regulatory agency in the world, second only to 
the, quote/unquote, vaunted EPA?
    So I think it's time that we assume that people and 
agencies and states want to be good actors. They want to clean 
up their environment. They want to keep things safe for their 
people. And we ought to let them do just that.
    Mr. Chairman, I'm going to yield you back six seconds.
    Chairman Biggs. Thank you.
    The Chair recognizes the gentleman from Louisiana, Mr. 
Higgins, for five minutes.
    Mr. Higgins. Thank you, Mr. Chairman.
    Ladies and gentlemen, I represent south Louisiana, the 
heartbeat of the oil and gas and petrochemical industry for the 
entire country, perhaps the world. Everything around us, the 
varnish on the table before you, the threads of your clothing 
are products of the petrochemical industry and the oil and gas 
industry. No State I don't believe has been more injured by EPA 
regulatory overreach than the great State of Louisiana and the 
citizens that I represent. EPA overreach has been incredibly 
injurious to the hardworking men and women, real Americans, 
man, with lives, with mortgages, with car notes, with children 
in school. The impact of the EPA over the last eight years has 
been quite significant in the real world outside of the bubble 
of Washington, D.C.
    Mr. Cabrera, it's been noted here regarding the replacement 
of nonscientists at the EPA. According to my research, there 
are 94,600 environmental science jobs. That's from the Bureau 
of Labor Statistics, 94,600 environmental scientists in our 
country. Do you think perhaps they might be considered for 
those jobs or just the nine?
    Mr. Cabrera. Mr. Chair, members of the committee, I believe 
in competition; I believe in diversity of ideas. I think that 
with competition and diversity of ideas we get to the best 
solutions.
    Mr. Higgins. I concur. There are 7,500, 8,000 graduates 
every year on average with environmental science degrees. You 
think perhaps they might be considered for those nine slots?
    Mr. Cabrera. Yes, sir.
    Mr. Higgins. Thank you. Let's move on. During the--since 
the inception of the EPA, there have been many Presidents 
from--in political, ideological stances. I think that's 
certainly a statement beyond debate. Do you believe that 
President Trump's decisions regarding the EPA are politically 
motivated from your perspective?
    Mr. Cabrera. Mr. Chair, members of the committee, I would 
hesitate to try to understand Mr. Trump's--President Trump's 
motivations. I can tell you that Administrator Pruitt's 
statements are in line with what the State of Arizona and many, 
many states would like.
    Mr. Higgins. Thank you. I bring this up because it would 
seem quite glaring that President Obama's Administration of the 
EPA was certainly politically motivated. Any reasonable man 
would agree. The--under the Clean Air Act, the EPA can issue a 
federal implementation plan when a State fails to develop an 
adequate plan. A FIP is the most drastic and aggressive action 
the EPA can take against a state government. President Obama, 
through his EPA, authored 56 federal implementation plans. The 
previous three Presidential Administrations issued five.
    So if we're going to talk about politics with candor and 
honesty amongst my colleagues, let us consider the fact that 
certainly as Presidents change, administrative endeavors 
change, the nature of federal regulatory agencies will also 
change, but there's been no more glaring example of political 
overreach and regulatory--very destructive policies than under 
the last President.
    And I ask Ms. Keogh--am I pronouncing your name right? My 
sister Bliss was the valedictorian of her class in college with 
a degree in geology. She went on to serve Louisiana DEQ and 
retired. She's a brilliant woman. And I certainly respect the 
work of the states. I observed from the inside the extreme 
dedication from DEQ employees, dedicated scientists that 
certainly were committed to protecting the environment. I 
remind the Committee and those present that we are a union of 
50 sovereign states, and that the Tenth Amendment of the 
Constitution states, ``The powers not delegated to the United 
States by the Constitution, nor prohibited by it to the states, 
are reserved to the states respectively, or to the people.''
    With that, Mr. Chairman, I yield back.
    Chairman Biggs. The Chair recognizes the Vice Chairman of 
the Subcommittee, the gentleman from Indiana, Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    Thanks to each of you for being here today. Just a couple 
of follow-up questions. Dr. Swackhamer, do you believe that 
there is a valuable level of diversity currently on the BOSC?
    Dr. Swackhamer. So in--yes, I do believe that there is and 
that that diversity is expressed mostly in terms of the 
expertise that's on there, as well as the experience of the 
members of the BOSC. So we have members from--expertise in 
water, engineering, toxicology, atmospheric sciences, land 
sciences, children's health. So it's that breadth and diversity 
of expertise that is highly valued in any of these scientific 
committees but particularly on BOSC right now.
    Mr. Banks. And just so I'm clear, the nine members who 
were--whose terms recently expired, who--which Administration 
appointed those nine members?
    Dr. Swackhamer. Because they were there for three years, 
they were appointed under the Obama Administration.
    Mr. Banks. Okay.
    Dr. Swackhamer. However, I really want to say that we don't 
serve as if we're loyal to who appointed us. There's no loyalty 
to how we give science advice. It's not about who was 
appointed----
    Mr. Banks. Understood. Mr. Cabrera, in your experience of 
dealing----
    Dr. Swackhamer. I served under three Presidents----
    Mr. Banks. --with the BOSC and you----
    Dr. Swackhamer. --and four Administrators----
    Mr. Banks. Excuse me.
    Dr. Swackhamer. --over my time. There is no--it doesn't 
matter----
    Mr. Banks. Excuse me.
    Dr. Swackhamer. --whose Administration----
    Mr. Banks. Mr. Cabrera, in your experience of dealing with 
the BOSC, do you believe that there's been a healthy level of 
diversity of thought, of ideology, of opinion on the BOSC from 
your point of view?
    Mr. Cabrera. Mr. Chair, members of the committee, I have to 
admit that I have precious little experience dealing directly 
with the BOSC.
    Mr. Banks. Okay. What about you, Ms. Keogh?
    Ms. Keogh. I believe that we do need more diversity on that 
panel. In my 30-some-odd years working in environmental policy, 
I have seen that diversity aids the better decision-making. So 
we have actually offered our own Chief Technical Officer 
several times to be considered for that position, and I believe 
that as we broaden that audience of scientists, we get better 
input and better decision-making and better policy out of our 
agencies.
    Mr. Banks. Thank you. You just answered my follow-up 
question. I don't want to date either one of you, but you have 
30-something years of experience in the field, Ms. Keogh?
    Ms. Keogh. That's correct.
    Mr. Banks. Mr. Cabrera, how many years of experience do you 
have in your field?
    Mr. Cabrera. Over 20.
    Mr. Banks. Okay. As a former state lawmaker--many of my 
colleagues on the committee also served in State Legislatures 
as well--I'm intrigued by much of your testimony already, Mr. 
Cabrera, about the change over the 47 years since the inception 
of the EPA and the relationship between the states and the 
federal government.
    But in your 20-something years, Ms. Keogh, in your 30-
something years of experience, was there a point--was there a 
period during that time that you watched a quick change, maybe 
a tipping point? Was there a point in time where you saw an 
ideological shift between the balance of the states and the 
federal government, Mr. Cabrera?
    Mr. Cabrera. In my experience, the attitude of 
collaborative federalism never really took hold the way it 
should have. I believe that there has always been a parent-
child kind of relationship with EPA. Now, let me say that I 
believe that EPA has a role, and doing science for the nation 
is one of them. However, I do not think that the idea of 
collaborative federalism has ever been fully developed, and I'm 
excited about what I hear Administrator Pruitt talking about 
because I think he can actually get us there.
    Mr. Banks. So never a sharp decline in that relationship, 
more of a slippery slope over time of--or do you believe it 
goes back to the inception, that cooperative federalism wasn't 
fully implemented in the beginning of the birth of the EPA?
    Mr. Cabrera. I think the approach has been consistent. The 
velocity at which decisions got made certainly accelerated 
during the last eight years. So the approach has always been 
parent-child, but the velocity at which decisions got made and 
imposed on the states certainly increased over the last eight 
years.
    Mr. Banks. Ms. Keogh, in your 30-something years of 
experience, would you--did the last eight years stand out as 
something that was different, more conflict perhaps over the 
past 8 years?
    Ms. Keogh. Absolutely. I believe, as Congressman mentioned 
and I previously testified to the Senate about the fact that we 
saw 10 times over the actions of federal plans over state plans 
in this last Administration was telling and that we were being 
second-guessed by this Administration more than ever. And so I 
look forward to the opportunity to be not a pawn but a partner, 
again. And I do believe that previous Administrations did work 
to--with the states where--and to build a competency so that 
there could be a strong cooperative federalism, and I think 
we're ready for that, as others have mentioned, and we're--we 
stand ready to support environmental progress in a new day. 
Thank you.
    Mr. Banks. Thank you. I yield back.
    Chairman Biggs. Thank you.
    And the Chair recognizes the long-patient gentleman from 
New York, Mr. Tonko.
    Mr. Tonko. Thank you, Mr. Chair.
    I just want to address a couple of comments that I've heard 
here in exchanges. The membership balance plan of the EPA 
acknowledges in its own document that it's about 8 months' 
worth of vetting and review that's required. And I heard 
earlier that perhaps we could do that in 3 months, but they 
indicate 8.
    And with the Constitution, I just want to cite that article 
1, section 8, the commerce clause, provides for a great 
opportunity, provides the given responsibility of broad powers 
to Congress in areas of environment and public health.
    So, again, thank you, Mr. Chair, and thank you, Dr. 
Swackhamer, for sharing your critical perspective today and for 
continuing to deliver the resounding message that rigorous, 
credible science matters. I find your testimony to be 
refreshing.
    Like you, I am alarmed by the recent dismissal of Science 
Advisory Board members at the EPA and especially with the 
stated intention of packing the board with industry experts. In 
a panel whose most significant responsibility is to evaluate 
science and public policy, independent scientists literally 
will not have a seat at that table. This dismissal of 
scientists and of science signals a dramatic shift toward 
federal policies that would put well-funded political and 
special interests ahead of the facts. The science that informs 
our national defense, health, economic, and other public 
policies that impact millions of Americans is under threat, and 
by troubling action, officially on notice.
    A few weeks ago, I spoke before a crowd of thousands in my 
district at the March for Science in Albany. I mentioned H.R. 
1358, the Scientific Integrity Act. This bill would require 
science watchdogs in every federal agency involved in 
scientific research. As threats to independent federally funded 
scientific research continue to grow, so must our ability to 
protect against them.
    The issue of scientific independence is not partisan. We 
have seen Presidents and political leaders from both major 
parties attempt to influence government-backed scientific 
findings. The result is often the same: public policy that may 
not reflect to the best interests of the American people. If we 
want our publicly funded science to be free, independent, and 
reliable, federal science must be able to protect itself from 
political and industry pressures.
    World leaders have started to appeal to America's 
scientists and engineers by arguing that other nations value 
their work more than the United states does. This is a sign 
that America's global leadership in science and innovation may 
be weakening. This is not the first time science has been 
marginalized in America, but each time it finds a way to return 
and flourish as conditions improve, and it is not too late, nor 
too hard for us to stand up now and safeguard our public 
science.
    So, Dr. Swackhamer, you are not just a former Professor of 
Environmental Health Sciences but are a Professor Emerita of 
Science, Technology, and Public Policy. It seems that the 
recent actions taken against the EPA's Board of Scientific 
Counselors to reduce the number of scientists on the board are 
not the only efforts taken by this Administration to diminish 
the role of expert scientific advice that may interfere with 
their policy objectives. The Department of Interior has 
suspended its Science Advisory Committees. The Secretary of 
Energy's senior-most Scientific Advisory Board has not been 
reconstituted since President Trump's inauguration, and the 
President's Council of Advisors on Science and Technology, or 
PCAST, can no longer be found on the White House's webpage.
    Our country has been built on a foundation of innovative 
science and technology so, Doctor, do these actions concern 
you, and should they concern us?
    Dr. Swackhamer. Well, I do think that there is a pattern 
here that certainly, as an individual, it causes me some--I'm 
troubled by the pattern that I see, the marginalization of 
science both within the top of the Administration, as well as 
within other agencies across the federal government, but I'm 
more familiar with EPA. I'm troubled by the fact that there is 
a--there's kind of a--there's an intent to politicize and 
marginalize the science.
    And, you know, policy is by nature political. It is the 
culmination of--if it's good policy, it starts with science and 
it gets influenced by many other things and often can end up 
being a political-motivated policy. I understand that. But the 
science should never be politicized. And the science should 
never be marginalized. And my fear--my personal fear is that 
the actions taken at the federal government are in fact 
diminishing the role of science. Certainly, they're not 
celebrating the role of science.
    All of the science offices in every major agency are 
unfilled. The folks that have been put forward or floated, the 
names that have been floated for--for instance, the Chief 
Science Officer at the U.S. Department of Agriculture has 
never--he has no degree or training in science, and yet he 
would be the Chief Scientist for USDA. These are the kinds of 
things that are part of a pattern that appear to be consistent 
with marginalizing the role of science in policy. Again, policy 
is--it's a mixture of things and it's influenced by many 
factors, but it should start with the bedrock of science. And I 
am a little fearful of that.
    Chairman Biggs. The gentleman's time is expired.
    The Chair recognizes the gentleman from Georgia, Mr. 
Loudermilk.
    Mr. Loudermilk. Well, thank you, Mr. Chairman, and I 
appreciate the opportunity.
    And everyone that's here today--and as I was listening to 
the previous testimony, I can tell you that from my experience, 
science is pretty absolute. The problem is it's our 
interpretation of that science to meet political ends, which 
has been happening since the dawn of man, and I believe it's 
going to happen.
    Our concern is are we using the science as fact or are we 
using that science to achieve a goal? As someone who grew up 
during the Apollo space race, I remember many scientists saying 
it was impossible with the data that we have to get to the 
moon. It wasn't the science that was wrong; it was our 
interpretation of that science. And we need to keep that in 
mind as we go forward and we deal with a lot of these issues 
because I would agree; we have politicized especially the 
environmental aspect of science a lot of times to our own 
detriment.
    Mr. Cabrera, I'm a little--still amazed a little bit or 
trying to get my hands wrapped around the regional haze rule, 
which seems to be a major topic that we hear about from the 
states. And why would EPA impose billions of dollars in 
environmental controls to achieve improvements that you can't 
even recognize with the naked eye?
    Mr. Cabrera. Mr. Chair, members of the committee, many 
would speculate that regional haze, along with clean power, 
along with several other rules, were a bureaucratic approach to 
deal with climate change. So many would speculate that while 
unable to pass any type of climate legislation through Congress 
that the previous Administration set out to use whatever tools 
were available and used them in such a way that would alleviate 
climate change.
    Mr. Loudermilk. So what's the effect been--your State is 
Arizona, correct? What has been the effect? Have you seen any 
improvements? What's the impact it's had on you as a State and 
you as an official?
    Mr. Cabrera. Mr. Chairman, members of the committee, after 
20 years, two commission reports, four lawsuits, two state 
plans, a federal plan, and an estimated cost of $500 million, 
we will not see a perceivable improvement in visibility in the 
Grand Canyon State.
    Mr. Loudermilk. Five hundred million dollars? That's State 
funds?
    Mr. Cabrera. That's private industry installing controls on 
their facilities to eliminate pollutants that then create haze.
    Mr. Loudermilk. So who ultimately pays for these controls? 
Is it the industry?
    Mr. Cabrera. Mr. Chair, members of the committee, it's 
likely going to be ratepayers.
    Mr. Loudermilk. Okay. Which really is the most vulnerable 
of us when you look at those that are on fixed income--and this 
is one of the issues I've had with politicizing the environment 
is ultimately, it is the ratepayer that pays, and the ones that 
hurt the most are the ones that already are trying to balance 
their checkbooks at the end of the month. And they cannot 
afford another increase in their rates.
    And what ultimately happens--in Georgia we do have some 
cold months, and what will happen is people will shut their 
heat off to save electricity and they'll burn their fireplace, 
which everyone knows is--creates more pollution than the 
footprint of the coal-fired plant that's in our community.
    Dealing with ozone--now, we kind of segued into ozone--
what--I understand there are exceptional events that the EPA 
considers with states. How would you--could you explain briefly 
exceptional events and what is--how do you--how would you rate 
EPA's ability to identify exceptional events?
    Mr. Cabrera. EPA has done some work associated with the 
exceptional events for dust, and that work is solid. In fact, 
the State of Arizona was a leader in that arena. For ozone, the 
problem is much more difficult. You are now dealing with some 
very complex photochemical models, and EPA has not established 
clear guidelines on how exceptional events for ozone would be 
demonstrated. An exceptional event by definition is something 
that is not created by industry or the lack of controls; it is 
created by something that is exceptional in nature.
    Mr. Loudermilk. A volcano or, in the case of Arizona, a 
dust storm?
    Mr. Cabrera. An ozone inversion due to weather conditions, 
yes.
    Mr. Loudermilk. Does--so if the EPA doesn't record--do they 
do a good job of recording the events or do they not record 
them and how--what's the effect it has on your State?
    Mr. Cabrera. Mr. Chairman, members of the committee, it is 
up to the states to make the demonstration, and then EPA has 
the ability to approve or reject the demonstration.
    Mr. Loudermilk. So basically, you have to go and prove that 
there was an exceptional event even if that exceptional event 
may have been a major incident that most Americans know about? 
Then you have to go present that----
    Mr. Cabrera. That's correct.
    Mr. Loudermilk. --your case?
    Mr. Cabrera. That's correct.
    Mr. Loudermilk. All right.
    Chairman Biggs. The gentleman's time has expired.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    Chairman Biggs. Thank you.
    I thank each of the witnesses today for being here with us 
and taking your time to be with us and your very valuable and 
interesting testimony.
    I'd also--this is the way it works. It's down to the 
Ranking Member, myself, and Mr. Loudermilk. This is consistent, 
so I appreciate all the Members and their questions as well.
    The record will remain open for two weeks for additional 
comments and written questions from Members.
    And this hearing is adjourned.
    [Whereupon, at 11:40 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Deborah L. Swackhamer

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

        Documents submitted by Subcommittee Chairman Andy Biggs
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      


  Documents submitted by Subcommittee Ranking Member Suzanne Bonamici
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  


                                 <all>
</pre></body></html>
